No. 20-7868

SSS

In the
Supreme Court of the United States

SSS 8

Douglas Kelly,
Petitioner,

v.

United States of America,
Respondent,

SSS

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

eee ee

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
BY RESPONDENT ANTHONY SISTRUNK

SS

Daniel M. Myshin, Esq.
Counsel of Record

P.O. Box 33

Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com
Attorney for Respondent
Anthony Sistrunk

 
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
BY RESPONDENT, ANTHONY SISTRUNK:

Respondent, Anthony Sistrunk asks leave to file the attached Brief of
Respondent, Anthony Sistrunk, in Support of Petition for Writ of Certiorari without
prepayment of cost and to proceed in forma pauperis.

Pursuant to this Court’s Rule 39.1, Mr. Sistrunk’s affidavit or declaration is
not attached because the court below appointed counsel in the current proceeding,
and counsel’s appointment was made pursuant to the Criminal Justice Act, 18 U.S.C.
§3006(A) and a copy of the Order is appended hereto.

Respectfully submitted,
Daniel M. Myshin, Esq.
Counsel of Record

P.O. Box 33

Hummelstown, PA 17036
(717) 541-5451

dan_myshin@myshinlaw.com

Attorney for Respondent
Anthony Sistrunk

May 18, 2021

 
Case: 18-2468 Document: 003112973002 Page:1 Date Filed: 07/03/2018

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 18-2468

 

USA v. Anthony Sistrunk

(U.S. District Court No. 1-14-cr-00070-009)

ORDER REGARDING APPOINTMENT OF COUNSEL

Daniel M. Myshin, Esq. is hereby appointed to represent Anthony Sistrunk on appeal. The
appointment will be created in the Court’s eVoucher program. Counsel is directed to the
eVoucher page for information regarding the appointment terms and procedures.

CJA 20, 30, 21 and 31 vouchers are submitted for payment through the Court’s e Voucher
program. Upon receiving separate email notification of this appointment from the Court’s CJA
staff, counsel may create CJA 20, 30, 21 and 31 vouchers for use in maintaining time and
expense records and paying for expert services.

Authorization for preparation of transcripts must be obtained in the District Court.
Deadlines for ordering and filing the transcripts will be set by this Court. Counsel is required to
file the transcript purchase order in this Court and should indicate in Part 1B of the form that the
"CJA form submitted to District Court Judge". Counsel must complete the transcript request by
filing an "Auth-24" request in the District Court’s eVoucher program. Financial arrangements for
the transcripts will not be considered complete until counsel has submitted an "Auth-24" request
through the District Court’s e Voucher program.

For the Court,
s/ Patricia S. Dodszuweit

Clerk
Dated: July 03, 2018

 

DW/ce: James T. Clancy Esq.
Michael A. Consiglio Esq.
William S. Houser Esq.
Daniel M. Myshin Esq.
Joseph J. Terz Esq.

 
